@
1

INSTITUTE FOR JUSTICE

November 12, 2019

Via Electronic Filing

Hon. Scott S. Harris, Clerk of Court
Supreme Court of the United States
1 First Street, NE

Washington, DC 20543

Re: Woodcrest Homes, Inc. v. Carousel Farms Metropolitan District,
Docket No. 19-607

Dear Mr. Harris:

As counsel for Petitioners Woodcrest Homes, Inc. in the above-captioned case,
I am writing to grant blanket consent to the filing of amicus curiae briefs in this
case, provided the briefs are filed within the time allowed by the rules of this Court.
This consent applies without regard to the positions taken in the briefs or the party

supported.
YY” Ml 4

Jeffrey Redfern
Counsel for Petitioners

  

ce: Jody Harper Alderman, Counsel for Respondents
(via email: jha@ablawcolorado.com)

ARLINGTON AUSTIN CHICAGO MIAMI MINNEAPOLIS SEATTLE TEMPE

901 N. Glebe Road, Suite 900 Arlington, VA 22203 (703) 682-9320 (703) 682-9321 Fax
general@ij.org — www.ij.org
